No.

In The Supreme Court of the United States
JAMUL ACTION COMMITTEE, JAMUL COMMUNITY CHURCH,
DARLA KASMEDO, PAUL SCRIPPS, and GLEN REVELL,

Petitioners
v.
E. SEQUOYAH SIMERMEYER,
Chairman of the National Indian Gaming Commission; et al.,

Respondents

On Petition For A Writ of Certiorari
To The United States Court of Appeals
For the Ninth Circuit

APPENDICES
Appendix A – Ninth Circuit Court of Appeals opinion (Sept. 8, 2020)….….A-1
Appendix B – Order denying petition for rehearing (Nov. 23, 2020)………A-26
Appendix C – District Court Order (Aug. 8, 2016)………..……………….A-27
Appendix D – BIA Commissioner Memorandum (Nov. 7, 1975)……….…A-41
Appendix E – BIA Superintendent, So. Cal. Agency (Apr. 10, 1979)……..A-43
Appendix F – Constitution of the JIV (excerpts) (1981)……………..….…A-44
Appendix G – BIA Director Bacon’s letter to the JIV (Jul. 1, 1993)…..…..A-46
Appendix H – NIGC SEIS Notice re reservation/casino (Apr. 10, 2013).....A-51

Case: 17-16655, 09/08/2020, ID: 11815241, DktEntry: 54-1, Page 1 of 25

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JAMUL ACTION COMMITTEE; JAMUL
COMMUNITY CHURCH; DARLA
KASMEDO; PAUL SCRIPPS; GLEN
REVELL; WILLIAM HENDRIX,
Plaintiffs-Appellants,

No. 17-16655
D.C. No.
2:13-cv-01920KJM-KJN

v.
OPINION
E. SEQUOYAH SIMERMEYER,
Chairman of the National Indian
Gaming Commission; DAVID
BERNHARDT, Secretary of the U.S.
Department of the Interior; TARA
KATUK MAC LEAN SWEENEY,
Assistant Secretary - Indian Affairs,
U.S. Department of the Interior;
PAULA L. HART, Director of the
Office of Indian Gaming, Bureau of
Indian Affairs; U.S. DEPARTMENT OF
THE INTERIOR; NATIONAL INDIAN
GAMING COMMISSION; RAYMOND
HUNTER, Chairman, Jamul Indian
Village; CHARLENE CHAMBERLAIN;
ROBERT MESA; RICHARD TELLOW;
JULIA LOTTA; PENN NATIONAL, INC.;
SAN DIEGO GAMING VILLAGE, LLC;
C.W. DRIVER, INC.; UNITED STATES
OF AMERICA,
Defendants-Appellees.

APPENDIX A

A-1

Case: 17-16655, 09/08/2020, ID: 11815241, DktEntry: 54-1, Page 2 of 25

2

JAMUL ACTION COMM. V. SIMERMEYER
Appeal from the United States District Court
for the Eastern District of California
Kimberly J. Mueller, Chief District Judge, Presiding
Argued and Submitted November 13, 2019
San Francisco, California
Filed September 8, 2020

Before: William A. Fletcher and Bridget S. Bade, Circuit
Judges, and Barry Ted Moskowitz,* District Judge.
Opinion by Judge W. Fletcher

SUMMARY**

Tribal Matters
The panel affirmed the district court’s dismissal for
failure to join a required party in an action challenging the
Jamul Indian Village’s efforts to build a casino.
In 1981, a small group of Kumeyaay Indians living on
land in Rancho Jamul, California organized under the Indian
Reorganization Act as the Jamul Indian Village. The Bureau
of Indian Affairs (“BIA”) approved the Village’s constitution,

*

The Honorable Barry Ted Moskowitz, United States District Judge
for the Southern District of California, sitting by designation.
**

This summary constitutes no part of the opinion of the court. It has
been prepared by court staff for the convenience of the reader.

A-2

Case: 17-16655, 09/08/2020, ID: 11815241, DktEntry: 54-1, Page 3 of 25

JAMUL ACTION COMM. V. SIMERMEYER

3

and the Village has appeared on the BIA’s published list of
federally recognized Indian tribes ever since.
Two community organizations and several of their
members (collectively “JAC”) contend that the Village is not
a federally recognized Indian tribe.
The panel held that the distinction JAC urges between
historic tribes and other tribal entities organized under the
Indian Reorganization Act was without basis in federal law.
The panel held further that the Jamul Indian Village is a
federally recognized Indian tribe with the same privileges and
immunities, including tribal sovereign immunity, that other
federally recognized Indian tribes possess. The Village’s
tribal sovereign immunity extends to its officers in this case.
Because the Village was protected by tribal sovereign
immunity, the panel agreed with the district court that the
Village cannot be joined in this action and that the action
cannot proceed in equity and good conscience without it. The
panel therefore affirmed the dismissal for failure to join a
required party.

COUNSEL
Kenneth R. Williams (argued), Sacramento, California, for
Plaintiffs-Appellants.
Varu Chilakamarri (argued), William B. Lazarus, Judith
Rabinowitz, and Barbara M.R. Marvin, Attorneys, Appellate
Section; Eric Grant, Deputy Assistant Attorney General;
Jeffrey H. Wood, Acting Assistant Attorney General;
Environment and Natural Resources Division, United States

A-3

Case: 17-16655, 09/08/2020, ID: 11815241, DktEntry: 54-1, Page 4 of 25

4

JAMUL ACTION COMM. V. SIMERMEYER

Department of Justice, Washington, D.C.; Matthew Kelly,
Office of the Solicitor, United States Department of the
Interior, Washington, D.C.; Austin T. Badger, Office of the
General Counsel, National Indian Gaming Commission,
Washington, D.C.; for Federal Defendants-Appellees.
Frank Lawrence (argued) and Zehava Zevit, Law Office of
Frank Lawrence, Nevada City, California, for TriballyRelated Defendants-Appellees.

OPINION
W. FLETCHER, Circuit Judge:
Since at least 1912, a small group of Kumeyaay Indians
have lived on a two-acre plot of land in Rancho Jamul,
California, deeded to the Roman Catholic Diocese of
Monterey and Los Angeles for use as an Indian cemetery. In
1981, the families residing there organized under the Indian
Reorganization Act (“IRA”), 25 U.S.C. §§ 5101 et seq., as the
Jamul Indian Village. The Bureau of Indian Affairs (“BIA”)
approved the Village’s constitution, and the Village has
appeared on the BIA’s published list of federally recognized
Indian tribes ever since. See 84 Fed. Reg. 1,200, 1,202 (Feb.
1, 2019); 83 Fed. Reg. 34,863, 34,864 (July 23, 2018);
82 Fed. Reg. 4,915, 4,916 (Jan. 17, 2017); 81 Fed. Reg.
26,826, 26,828 (May 4, 2016); 80 Fed. Reg. 1,942, 1,944
(Jan. 14, 2015); 79 Fed. Reg. 4,748, 4,750 (Jan. 29, 2014);
78 Fed. Reg. 26,384, 26,386 (May 6, 2013); 77 Fed. Reg.
47,868, 47,870 (Aug. 10, 2012); 75 Fed. Reg. 60,810, 60,811
(Oct. 1, 2010); 74 Fed. Reg. 40,218, 40,220 (Aug. 11, 2009);
73 Fed. Reg. 18,553, 18,554 (Apr. 4, 2008); 72 Fed. Reg.
13,648, 13,649 (Mar. 22, 2007); 70 Fed. Reg. 71,194, 71,195

A-4

Case: 17-16655, 09/08/2020, ID: 11815241, DktEntry: 54-1, Page 5 of 25

JAMUL ACTION COMM. V. SIMERMEYER

5

(Nov. 25, 2005); 68 Fed. Reg. 68,180, 68,181 (Dec. 5, 2003);
67 Fed. Reg. 46,328, 46,329 (July 12, 2002); 65 Fed. Reg.
13,298, 13,300 (Mar. 13, 2000); 63 Fed. Reg. 71,941, 71,943
(Dec. 30, 1998); 62 Fed. Reg. 55,270, 55,272 (Oct. 23, 1997);
61 Fed. Reg. 58,211, 58,212 (Nov. 13, 1996); 60 Fed. Reg.
9,250, 9,252 (Feb. 16, 1995); 58 Fed. Reg. 54,364, 54,367
(Oct. 21, 1993); 53 Fed. Reg. 52,829, 52,830 (Dec. 29, 1988);
51 Fed. Reg. 25,115, 25,116 (July 10, 1986); 50 Fed. Reg.
6,055, 6,056 (Feb. 13, 1985); 48 Fed. Reg. 56,862, 56,863
(Dec. 23, 1983); 47 Fed. Reg. 53,130, 53,132 (Nov. 24,
1982).
This case concerns the Village’s status as a federally
recognized Indian tribe. In a suit challenging the Village’s
efforts to build a casino, two community organizations and
several of their members (collectively, “JAC”) contend that
the Village is not a federally recognized Indian tribe. Instead,
JAC contends that the Village is only a community of adult
Indians, not a historic tribe with inherent sovereign authority.
Therefore, according to JAC, the Village may not use its
lands for gaming and is not protected by tribal sovereign
immunity.
No tribunal has accepted this argument. But that has not
deterred litigants, including JAC and other members of the
plaintiff organizations, from pressing similar claims in
myriad actions before administrative agencies, state courts,
and federal courts around the country since the early 1990s.
In an opinion that we hope will finally put an end to these
claims, we hold as follows. The distinction JAC urges
between historic tribes and other tribal entities organized
under the IRA is without basis in federal law. Jamul Indian
Village is a federally recognized Indian tribe with the same
privileges and immunities, including tribal sovereign

A-5

Case: 17-16655, 09/08/2020, ID: 11815241, DktEntry: 54-1, Page 6 of 25

6

JAMUL ACTION COMM. V. SIMERMEYER

immunity, that other federally recognized Indian tribes
possess. The Village’s tribal sovereign immunity extends to
its officers in this case.
Because we hold that the Village is protected by tribal
sovereign immunity, we agree with the district court that the
Village cannot be joined in this action and that the action
cannot proceed in equity and good conscience without it. We
therefore affirm the district court’s judgment dismissing
JAC’s claims for failure to join a required party.
I. Background
A. The Jamul Indian Village
In 1912, the Coronado Beach Company deeded a small
parcel in Rancho Jamul, San Diego County, California, to the
Roman Catholic Diocese of Monterey and Los Angeles for
use as an Indian cemetery. No more than a portion of the
land has ever been used as a burial ground. On the remainder
of the parcel, with the acquiescence of the Diocese, several
families of Kumeyaay Indians have made their home for
generations.
Beginning in the early 1970s, the families residing on the
parcel sought to organize under the IRA. The Diocese and a
local family transferred about six acres to the United States,
including the greater part of the Indian cemetery and an
adjoining parcel of private land, which the government
accepted into trust for the benefit of the Jamul Indians. After
the United States took this land into trust, the Superintendent
of the Southern California Agency for the BIA recommended
federal recognition of the Village and its inclusion on the list
of recognized tribal entities published in the Federal Register.

A-6

Case: 17-16655, 09/08/2020, ID: 11815241, DktEntry: 54-1, Page 7 of 25

JAMUL ACTION COMM. V. SIMERMEYER

7

The BIA authorized a constitutional election. After a
majority of eligible voters cast ballots in favor, the BIA
approved the Village’s constitution under the IRA on July 7,
1981. The tribal constitution limited membership to those
with one-half or more California Indian blood.
B. Leadership Dispute and Subsequent Litigation
Trouble began for the Village in the early 1990s with a
series of disputes about the Village’s membership and
leadership. Faced with the prospect of declining membership
as the Village’s initial members died, the Village began
considering reducing the blood quantum requirement for
membership. At about the same time, some members of the
Village sought to recall officers elected in the Village’s 1992
election. See Rosales v. Sacramento Area Dir. (Rosales I),
32 IBIA 158, 159–63 (1998). Those members held a recall
election, which the BIA determined did not comport with the
Village’s constitution and declined to recognize. Id. at 161.
The Village’s BIA-recognized government and its opponents
held separate elections in 1995. The Interior Board of Indian
Appeals (“IBIA”) ultimately reinstated the officers elected in
the 1992 elections. Id. at 167.
Meanwhile, the Village obtained authorization from the
BIA to hold an election to amend its constitution to reduce
the blood quantum requirement for membership from onehalf to one-quarter. The election approved the amendment in
1996. The BIA rejected a challenge to the amendment
brought by the tribal members opposed to the Village’s
government. See Rosales v. Sacramento Area Dir., 34 IBIA
50 (1999). However, some members continued to dispute the
amendment’s validity. They challenged every tribal election
in which individuals of less than one-half Indian blood were

A-7

Case: 17-16655, 09/08/2020, ID: 11815241, DktEntry: 54-1, Page 8 of 25

8

JAMUL ACTION COMM. V. SIMERMEYER

allowed to vote and held separate elections in 1997, 1999, and
2001. Rosales v. United States (Rosales II), 477 F. Supp. 2d
119, 124 (D.D.C. 2007) (holding that individuals who were
not registered voters in the 1996 election lacked standing to
challenge its results), aff’d, 275 F. App’x 1 (D.C. Cir. 2008).
Central to the arguments raised by the opponents of the
Village’s BIA-recognized tribal government in these suits
was the theory that the Village was no more than a
community of adult Indians created by the Department of the
Interior and therefore was not a federally recognized Indian
tribe with the same privileges and powers as a properly
recognized historic tribe. Plaintiffs advanced this theory in
challenges to tribal elections, to the beneficial ownership of
the parcels held in trust by the United States for the Village,
and to the Village’s more recent efforts to build and operate
a casino. See, e.g., Rosales II, 477 F. Supp. 2d at 129;
Rosales v. United States, 73 F. App’x 913 (9th Cir. 2003);
Rosales v. United States, 477 F. Supp. 2d 213 (D.D.C. 2007).
In a 2009 opinion holding that a claim by opponents of the
Village’s tribal government to a personal beneficial interest
in the Village’s trust land was time-barred, the Court of
Federal Claims identified “no fewer than fourteen legal
actions brought before tribal tribunals, administrative boards,
and federal courts in California and the District of Columbia,
all without success,” presenting “these same and related
issues.” Rosales v. United States, 89 Fed. Cl. 565, 571 & n.2
(2009). Since then, both individuals and organizations
affiliated with JAC have continued to press similar claims in
both state and federal courts. See, e.g., Rosales v. Dep’t of
Transp., No. D066585, 2016 WL 124647 (Cal. Ct. App. Jan.
12, 2016) (unpublished); Jamulians Against the Casino v.
Dep’t of Transp., No. C077806, 2016 WL 1253586 (Cal. Ct.

A-8

